No.
In The

Supreme Court of the United States
Kimberly Johnston, Petitioner
v.

Mark J. McGinnis and State of Wisconsin
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

Certificate of Mailing

As required by Supreme Court, I certify that three copies of the Petition for
Writ of Certiorari were mailed, prepaid, priority mail with tracking, to the
Defendants’ Attorney’s at Wisconsin Department of Justice, AG Joshua Kaul and
AAG Gabe Johnson-Karp, P. O. Box 7857, Madison, WI 53707-7857.
Dated: January 6, 2021
"VL
Kimberly Johnston, Petitioner, Pro Se
230 W. High Street
Seymour, WI 54165
Ph. 920.639.6546
C:
WI AG Joshua Kaul,
Gabe Johnson-Karp, Defendants’ Counsel
Wisconsin Department of Justice
P.O.Box 7857
Madison, WI 53707-7857
Ph. 608.267.8904
j ohnsonkarpg@doj. state. wi. us

RECEIVED
JAN 1 2 2021
OFFICE OF THE CLERK
qi IPREME COURT. U.S^

